                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

                                                                              11
-    -




Case Number:             A070 10003                                                        Page 1 of 1



                 We opened this case after reading a piece in Science magazine1 describing the
         disgruntlement of New Zealand authorities over what they perceived to be a lack of
         cooperation of NSF with NZ's inquest into the death of a scientist at the USAP7sSouth Pole
         Station on 12 May 2000. We reviewed materials provided by the Office of Polar Programs
         and determined that NSF cooperated fully with the NZ authorities. Accordingly, this case is
         closed.




              -




          2    2         December   2006,   Vol.    314.   no.   5807,   p.        1861;   available     at
                                                    14/5807/1861b.
          http://www.sciencemag.org/cgi/content/summa/3



NSF OIG Forn~2 (11/02)
